NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



                 OIG REPORT TO OMB ON THE
           NATIONAL CREDIT UNION ADMINISTRATION’S
                    COMPLIANCE WITH THE
               FEDERAL INFORMATION SECURITY
                     MANAGEMENT ACT
                           2006
             Report #OIG-06-06            September 29, 2006




                              William A. DeSarno
                              Inspector General


    Released by:                            Auditor-in-Charge:



    James Hagen                            Tammy F. Rapp, CPA, CISA
    Asst IG for Audits                     Sr Information Technology Auditor




                         LIMITED OFFICIAL USE ONLY
               INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION
                             INFORMATION SECURITY PROGRAM - 2006
                                       Report #OIG-06-06


                                            CONTENTS




Section                                                                             Page

    I       EXECUTIVE SUMMARY                                                         1

    II      OFFICE OF MANAGEMENT & BUDGET REPORT FORMAT                               3

Appendix
   A     Independent Evaluation of the NCUA Information Security Program – 2006

    B       NCUA Financial Statement Audits – FY2005


Appendices are limited to restricted official use only.




                                 LIMITED OFFICIAL USE ONLY
               INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION
                             INFORMATION SECURITY PROGRAM - 2006
                                       Report #OIG-06-06

                               I. EXECUTIVE SUMMARY
The Office of Inspector General (OIG) for the National Credit Union Administration (NCUA)
engaged Grant Thornton LLP to conduct an independent evaluation of its information systems
and security program and controls for compliance with the Federal Information Security
Management Act (FISMA), Title III of the E-Government Act of 2002.

Grant Thornton evaluated NCUA’s security program through interviews, documentation reviews,
and sample testing. We evaluated NCUA against standards and requirements for federal
government agencies such as those provided through FISMA, National Institute of Standards
and Technology (NIST) Special Publications (SPs) and Federal Information Processing
Standards (FIPS), and Office of Management and Budget (OMB) memorandums. We
conducted an exit conference with NCUA officials on September 6, 2006, to discuss evaluation
results.

The NCUA made noticeable progress in strengthening its Information Technology (IT) security
program during Fiscal Year (FY) 2006. Notable accomplishments include:

   •   Significant strides in remediation of the significant deficiency noted in the FY2005 report
       by deploying encryption software to improve security of information stored on examiners’
       laptop computers, and
   •   Completion of the Accreditation package for the NCUA General Support System (GSS).

While NCUA has made commendable progress in eliminating the significant deficiencies
reported last year, our review this year identified the following weaknesses in IT security
controls that deserve immediate management attention:

   •   Procedures requiring the use of cryptographic security measures for sensitive financial
       and Personally Identifiable Information (PII) need better enforcement, and Privacy
       Impact Assessments (PIA) for its systems needs to be developed.

   •   Certification and accreditation (C&A) of all NCUA systems needs to be completed.

   •   Password and user account security configurations need improvement, including regular
       user account reconciliations.

   •   Personnel security awareness training program needs to be fully implemented.

We also noted the following other weaknesses in IT security controls that management should
consider:

   •   Security planning documentation needs improvement in consistent version control,
       revisions/updates, and dissemination to required officials.

   •   E-Authentication risk assessments should be developed for NCUA’s systems.

   •   Security configuration guides need to be developed.

   •   Continuity of Operations Plan (COOP) and Disaster Recovery procedures need to be
       more consistently updated and tested including the regular testing of NCUA’s Disaster

                                LIMITED OFFICIAL USE ONLY
                                            1
               INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION
                             INFORMATION SECURITY PROGRAM - 2006
                                       Report #OIG-06-06

        Recovery and system contingency plans. In addition, restoration priorities related to
        system impact ratings need to be consistently applied and documented.

    •   Physical security measures need to be consistently enforced.

    •   Regular incident response training needs to be conducted.

    •   NCUA’s Plan of Actions and Milestones (POA&M) process needs improvement.

We appreciate the courtesies and cooperation provided to our auditors during this audit.

.




                               LIMITED OFFICIAL USE ONLY
                                             2
